                                                      -
                          , -.-
                                VATIONAL SCIENCE  FOUNDATIC
                                  WASHINGTON, D. C. 2055Ue'
                                     March 8, 1990


    Office of
Inspector General




            -
  This is in response to your January 10 letter to the Inspector
  General of the National Science Foundation.     We have carefully
  read your letter and the attached doc
  "Conflicts of Interest Surrounding the
  Since it contains no reference to NSF per
  under NSF funding, we find that there is nothing in your
  allegation that involves NSF. This conclusion is not affected by
  the fact that the                             u n c l u d e d you in a
  survey                  supported by NSF.     Consequently, your
  allegation is not suitable for investigation by the Office of the
  Inspector General, and this Office will take no further action.
  Since this allegation seems to deal exclusively with National
  Institutes of Health matters, you may wish to refer it to them.
  The appropriate address is:
         Dr. Susanne Hadley
         Acting Deputy Director
         Office of Scientific Integrity
         Building 31
         National Institutes of Health
         Bethesda, MD 20892
  I hope this information is useful.

                                               Sincerely yours,


                                                     / s/
                                               Staff Associate for
                                                 Oversight

  bcc:               , OIG
          OIG subject- F i l e
          OIG Chron
                    :gc:3/8/90
